            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

THE SOCIAL SECURITY ADMINISTRATION’S
COMPLIANCE WITH INTELLIGENCE REFORM
 AND TERRORISM PREVENTION ACT OF 2004
  PROVISIONS REGARDING SECURITY OF
 SOCIAL SECURITY CARDS AND NUMBERS

      May 2008      A-08-08-18058




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      May 21, 2008                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Compliance with Intelligence Reform and
           Terrorism Prevention Act of 2004 Provisions Regarding Security of Social Security
           Cards and Numbers (A-08-08-18058)


           OBJECTIVE

           Our objective was to assess the Social Security Administration’s (SSA) compliance with
           certain provisions of the Intelligence Reform and Terrorism Prevention Act of 2004
           (IRTPA) that involve the security of Social Security cards and numbers.

           BACKGROUND
           On December 17, 2004, President Bush signed IRTPA into law. 1 Section 7213(a)(1)(B)
           of this law mandates that SSA establish minimum standards for the verification of
           documents or records submitted by an individual to establish eligibility for an original or
                                                                    2
           replacement card, other than for enumeration at birth. Section 7213(b) requires that
           SSA, in consultation with the Department of Homeland Security, form an interagency
           task force 3 to further improve the security of Social Security cards and numbers. The
           law further states that the Commissioner of Social Security should provide for the
           implementation of security requirements, including 7213(b)(1) standards for
           safeguarding cards from counterfeiting, tampering, alteration, and theft and 7213(b)(2)
           requirements for verifying documents submitted for the issuance of replacement cards. 4




           1
               Public Law 108-458.
           2
            This section requires that SSA establish such standards not later than 1 year after the date of enactment
           of this Act.
           3
             The interagency task force included representatives from SSA, the Department of Homeland Security,
           the Federal Bureau of Investigation, the Department of State, and the Government Printing Office.
           4
            This section requires that SSA implement such requirements not later than 18 months after the date of
           enactment of this Act.
Page 2 - The Commissioner


To accomplish our objective, we contacted officials from SSA’s Office of Income
Security Programs and reviewed policies and procedures SSA established to comply
with IRTPA provisions regarding the security of Social Security cards and numbers. We
also reviewed reports regarding potential security enhancements to the Social Security
card. See Appendix A for additional information on our scope and methodology.

RESULTS OF REVIEW
Based on our interviews with SSA officials and a review of policies and procedures, we
determined that SSA established minimum standards for verifying documents or
records that applicants submit to establish eligibility for an original or replacement card.
SSA also implemented numerous security features to enhance the integrity of Social
Security cards. Although we are pleased with SSA’s compliance with the IRTPA
provisions we reviewed, we believe the Agency should periodically assess these areas
and enhance internal controls as needed to reduce the potential for improper SSN
assignment and counterfeiting of Social Security cards.

SSA Established Minimum Standards for Verifying Evidentiary Documents

IRTPA mandates that SSA establish minimum standards to verify documents or records
submitted by an individual to establish eligibility for an original or replacement card,
other than for enumeration at birth. To comply with this provision, SSA established a
list of acceptable evidentiary documents, issued policy instructions, and trained field
office personnel on the minimum standards for document verification. 5 To help
applicants understand the new IRTPA provisions, SSA also produced a fact sheet and
revised information brochures and pamphlets.

When processing Social Security number (SSN) applications, SSA personnel first
determine the applicant’s age range. 6 Next, SSA policy instructs personnel to
determine whether the applicant is a U.S. citizen or alien. Within each age range, SSA
establishes acceptable evidentiary documents for U.S. citizens and aliens. Under each
category, SSA lists documents in two groups based on their relative probative value:
primary and secondary evidence. Primary evidence documents have the highest
probative value while secondary documents have lower probative value. 7

For adult U.S. citizens, primary evidence of identity includes a U.S. driver's license,
U.S. State issued non-driver identity card, or U.S. Passport. 8 Acceptable secondary

5
 SSA implemented this IRTPA provision in December 2005. After reviewing SSA’s new document
verification policies, the interagency task force agreed with the policies in place.
6
 SSA classifies applicants’ ages as follows: birth through age 5, ages 6 through 17, and ages 18 and
older.
7
 Our July 2007 report, Field Office Use of the SS-5 Assistant (A-04-07-17026), found that replacement
SSN card applicants provided primary evidence in about 91 percent of our sample cases.
8
    Program Operations Management System (POMS), section RM 00203.200E.6.
Page 3 - The Commissioner


evidence for adult U.S. citizens includes documents with less probative value, such as
U.S. military identification cards, Certificates of Naturalization, Certificates of
U.S. Citizenship, U.S. Government employee identification cards, non-Government
identification cards/badge cards, marriage documents, certified copies of medical
records, health insurance or Medicaid cards, life insurance policies, and school identity
cards or records. 9 SSA handles situations where no primary or secondary
documentation exists or can be obtained by the applicant within 10 days 10 on a
case-by-case basis. SSA policy requires that personnel have their supervisor
determine whether the other evidence of identity is acceptable. In such cases,
supervisors must consult with the SSA regional office. 11 SSA also instructs personnel
to verify all evidentiary documents with the issuer when the documents do not appear
authentic.

Although SSA considers security issues in formulating its policies relative to SSN
assignment, it also considers public service and a wide range of factors. Among these
are the need for virtually every U.S. citizen and many noncitizens to obtain an SSN, and
that not all card applicants are adults. Not every applicant, even if age 16 or older, has
a driver’s license, State identification card, or other photograph identity document; and
not every applicant has more than one identity document that meets SSA’s criteria. As
such, these factors guided SSA’s process for establishing priority lists of acceptable
documents that establish identity and citizenship.

Although SSA has established minimum standards for verifying evidentiary documents,
we believe it should periodically assess the probative value of these documents and
update its list of acceptable documents, as needed. For example, if SSA field office
personnel determine certain acceptable evidentiary documents (for example, health
insurance cards or life insurance policies) have less probative value than originally
thought, the Agency should no longer accept such documents. Periodically assessing
the probative value of evidentiary documents helps reduce the potential for SSA to
improperly assign SSNs.

SSA Added Security Features to SSN Cards

IRTPA requires that the Commissioner of Social Security, in consultation with the
Secretary of Homeland Security, form an interagency task force to establish
requirements to further improve the security of Social Security cards and numbers.
IRTPA also requires that the Commissioner provide for the implementation of security
requirements, including standards for safeguarding cards from counterfeiting,
tampering, alteration, and theft. To comply with this provision and prepare for
interagency task force discussions, SSA contacted the Document Security Alliance, a

9
 POMS, section RM 00203.200E.6. A marriage document is acceptable evidence of identity only when
submitted as evidence for a legal name change.
10
     POMS, section RM 00203.200E.2d.
11
     POMS, section RM 00203.200E.2.e.
Page 4 - The Commissioner


group of experts on document security, in October 2005 to develop a Whitepaper with
recommendations for a more secure SSN card. From January through April 2006, the
interagency task force met to discuss options for a more secure SSN card and used the
Whitepaper recommendations as a basis for discussion. 12 The task force issued its
final report, which outlined its recommendations to the Commissioner, 13 in May 2006.

SSA implemented six overt and various covert security features to the SSN card.
Because SSN card features are used in forensic analysis of counterfeit documents, we
withheld descriptions of the covert changes. The six overt changes were as follows.

•    The card issuance date was added to the front of each SSN card.

•    Signing instructions were added to the perforated card attachment. The instructions
     state “ADULTS: Sign this card in ink immediately. CHILDREN: Do not sign until age
     18 or your first job, whichever is earlier.”

•    A guilloche background pattern, which is a unique, non-repeating spiral design,
     replaced the existing marbleized pattern. The new pattern is similar in color to the
     past background and continues to have the security feature of being erasable. 14
     This background is computer-generated and difficult to duplicate.

•    A latent image was added to the SSN card face. This feature, a text image, is
     visible only when the document is viewed at specific angles.

•    A split fountain production method was added that produces a unique ink color
     mixture on the press that transfers to the paper. The colors on the background of
     the card flow from blue to aqua.

•    Color shifting inks were added to the face of the card. These inks have a multilayer
     light interference ink pigment imbedded that creates a noticeable color shift when
     moved in front of a light source. This feature is also used in currency.




12
   The Formulation and Definition of Minimum Card Security Standards for the SSA, Document Security
Alliance, April 2006.
13
   Final Report: Issued by the Interagency Task Force formed to carry out Section 7213(b) of the
Intelligence Reform and Terrorism Prevention Act of 2004, May 2006.
14
  An erasable ink background is a security feature because it reveals an attempt at ink and toner removal.
This damage to the card is an overt indicator of an attempt to tamper with or alter the card.
Page 5 - The Commissioner


In addition to the above IRTPA changes, SSA implemented a change in response to
requests from employer groups to distinguish the last name of the individual on the
SSN card. As a result, beginning in September 2007, the individual’s last name was
displayed on a separate line on the card directly below the first and middle name.

SSA was aware of the various options for a new SSN card (ranging from no card at all
to a new ultra-secure card containing biometric features) and the various purposes it
could serve. However, in determining the scope for the task force deliberations, SSA
considered existing legal requirements, national debate over immigration reform, and
                                 15
the passage of the REAL ID Act.

Specifically, the Social Security Act 16 mandates that the SSN card “shall be made of
banknote paper.” In addition, the Commissioner cannot require enumerated individuals
to apply for a new SSN card. Requiring that every cardholder obtain a new card would
be a multi-billion dollar effort.

Also, SSA determined it would not introduce a new SSN card with enhanced workplace
enforcement features while the immigration reform debate was ongoing between
Congress and the Nation. Finally, in passing the REAL ID Act, Congress provided the
Nation with a framework for reliable identity documents in the form of State-issued
driver’s licenses and identification cards. This legislation seemed to diminish the need
for a new type of SSN card to serve a similar purpose. Based on these factors, SSA
decided it would continue to produce SSN cards on banknote paper and issue the new,
more secure, cards prospectively (to anyone applying for an original or replacement
card after IRTPA enactment).

Although SSA has added security features to SSN cards, we believe it should
periodically examine potential threats to counterfeiting of SSN cards and make security
enhancements, as needed. For example, as technology improves, SSA should conduct
ongoing threat assessments to examine the ease of counterfeiting and to respond to
such threats timely. Periodically examining potential threats to the SSN card helps
reduce the potential for counterfeiting, tampering, alteration, and theft.




15
     Public Law 109-13.
16
  Social Security Amendments of 1983, Public Law 98-21 § 345, see also The Social Security Act
§ 205(c)(2)(G), 42 U.S.C. § 405(c)(2)(G).
Page 6 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
As SSA continues to enhance SSN integrity, opportunists will continue to look for ways
to exploit vulnerabilities in the Agency’s controls. As such, SSA must continually
assess and examine its policies and procedures to safeguard Social Security cards and
numbers.

Accordingly we recommend that SSA periodically:

1. Assess the probative value of documents it allows as evidence of identity and U.S.
   citizenship and update its list of acceptable documents as needed to safeguard the
   assignment of SSNs.

2. Examine potential threats to SSN cards and make security enhancements as
   needed to better prevent counterfeiting, tampering, alteration, and theft.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix B.




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Agency Comments
APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                      Appendix A

Scope and Methodology
To accomplish our objectives, we

•   reviewed applicable laws and Social Security Administration (SSA) policies and
    procedures related to the implementation of Intelligence Reform and Terrorism
    Prevention Act of 2004 provisions regarding the security of Social Security cards
    and numbers;

•   contacted officials from SSA’s Office of Income Security Programs;

•   reviewed a Whitepaper and interagency task force final report regarding the security
    of Social Security cards and numbers; and

•   attended a Government Printing Office meeting to learn about the security
    enhancements made to the Social Security card.

The SSA entity reviewed was the Office of the Deputy Commissioner for Retirement
and Disability Policy. We performed our audit in Baltimore, Maryland, and Birmingham,
Alabama, from September through December 2007. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.
                  Appendix B

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      April 30, 2008                                                        Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “SSA's Compliance with the Intelligence
           Reform and Terrorism Prevention Act of 2004 Provisions Regarding Security of Social Security
           Cards and Numbers” (A-08-08-18058)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “SSA'S COMPLIANCE WITH THE INTELLIGENCE REFORM AND
TERRORISM PREVENTION ACT OF 2004 PROVISIONS REGARDING SECURITY
OF SOCIAL SECURITY CARDS AND NUMBERS” (A-08-08-18058)


Thank you for the opportunity to review and comment on the draft report. We are pleased that
this report acknowledges our overall compliance with the Social Security number (SSN) and card
provisions contained in the Intelligence Reform and Terrorism Prevention Act of 2004
(P.L. 108-458). Specifically, the report recognizes that we established minimum standards for
verifying documents or records that applicants submit to establish eligibility for an original or
replacement card and that we implemented the interagency task force recommendations to further
strengthen and safeguard the number and card from counterfeiting, tampering, alteration, and
theft. Our responses to the specific recommendations are provided below.

Recommendation 1

Assess the probative value of documents we allow as evidence of identity and United States
citizenship and update its list of acceptable documents as needed to safeguard the assignment of
SSNs.

Response

We agree. We will continue to review the probative value of the documents we allow as
evidence of identity and United States citizenship, and update the list of acceptable documents as
needed to safeguard the assignment of SSNs.

Recommendation 2

Examine potential threats to SSN cards and make security enhancements as needed to better
prevent counterfeiting, tampering, alteration, and theft.

Response

We agree. We continually evaluate new technology as it becomes available and examine any
potential threats to the integrity of the physical SSN card, in order to take the appropriate
measures needed to address any vulnerability.




                                               B-2
                                                                     Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Birmingham Audit Division, 205-801-1650

   Jeff Pounds, Audit Manager, Birmingham Office, 205-801-1606

Acknowledgments

In addition to those named above:

   Hollie Reeves, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-08-18058.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External
Relations (OER), and Office of Technology and Resource Management (OTRM). To ensure compliance
with policies and procedures, internal controls, and professional standards, the OIG also has a
comprehensive Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                    Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures
and techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches,
and presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
